APPENDIX A

United States v. Petty
United States Court of Appeals for the Fifth Circuit
April 23, 2020, Filed
No. 19-10430 Summary Calendar
Reporter
810 Fed. Appx. 293 *; 2020 U.S. App. LEXIS 13175 **; 2020 WL 1970532

UNITED STATES OF AMERICA, Plaintiff - Appellee v.
DEBORAH PETTY, Defendant - Appellant
Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.
Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 3:14-CR498-1.

United States v. Petty, 2018 U.S. Dist. LEXIS 7719 (N.D.
Tex., Jan. 17, 2018)

Case Summary
Overview
HOLDINGS: [1]-Venue was proper in the Northern District
of Texas because, while defendant admitted she had a box full
of other people's medical records, but that she did not illicitly
possess them in the Northern District with intent to commit,
or to aid or abet, or in connection with, any unlawful activity,
a rational jury could well conclude otherwise by a
preponderance of the evidence, and rational jury could well
conclude by a preponderance of the evidence that she
committed aggravated identity theft in the Northern District;
[2]-The restitution award and the forfeiture order had to be
vacated, and the case remanded for resentencing as the
restitution award contained an error or defect that was clear or
obvious and affected defendant's substantial rights, and the
amount she could forfeit was based on the restitution amount.
Outcome
The conviction was affirmed, but the restitution award and the
order of forfeiture were vacated and remanded.
Counsel: For United States of America, Plaintiff - Appellee:
Brian W. McKay, Esq., Assistant U.S. Attorney, Gail A.
Hayworth, Leigha Amy Simonton, Assistant U.S. Attorney,
U.S. Attorney's Office, Dallas, TX.
For Deborah Petty, Defendant - Appellant: Brandon Elliott

Beck, Federal Public Defender's Office, Lubbock, TX.
Judges: Before JOLLY, JONES, and SOUTHWICK, Circuit
Judges.

Opinion
[*294] PER CURIAM:*
Deborah Petty seeks vacatur of her conviction for seven
counts of identity fraud under 18 U.S.C. § 1028 and one count
of aggravated identity theft under 18 U.S.C. § 1028A,
contending that venue was improper. We conclude, however,
that the government met its light burden to prove proper
venue and AFFIRM the conviction. Alternatively, Petty seeks
vacatur of the court's restitution award of $44,438 and the
forfeiture order of $15,562. Because the restitution was
awarded for the wrong set of acts, and the forfeiture order
appears inextricably tied to restitution, we VACATE the
restitution award and forfeiture order and REMAND for
reconsideration in light of this decision.

[*295] I.
Petty was convicted of seven counts of identity theft, which is
committed where one [**2]
knowingly transfers, possesses, or uses, without lawful
authority, a means of identification of another person
with the intent to commit, or to aid or abet, or in
connection with, any unlawful activity that constitutes a
violation of Federal law, or that constitutes a felony
under any applicable State or local law.
18 U.S.C. § 1028(a)(7) (2012).
Petty was also convicted of one count of aggravated identity
theft, which is committed where

* Pursuant

to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

Brandon Beck

Page 2 of 3
810 Fed. Appx. 293, *295; 2020 U.S. App. LEXIS 13175, **2
during and in relation to [knowingly and with intent to
defraud possess[ing] fifteen or more . . . unauthorized
access devices], [one] knowingly transfers, possesses, or
uses, without lawful authority, a means of identification
of another person.
18 U.S.C. §§ 1028A(a)(1), 1029(a)(3) (2012).
Petty maintains that these convictions were improper because
she was prosecuted in the wrong venue. Federal Rule of
Criminal Procedure 18 establishes that a "prosecution shall
be had in a district in which the offense was committed."
Petty denies that her offense took place in the Northern
District of Texas. On this ground, she made an oral motion for
judgment of acquittal, but after supplemental briefing the
district court denied that motion. Petty contends that this
denial was erroneous.
This court "review[s] a district court's denial of a motion for
judgment [**3] of acquittal de novo." United States v.
Campbell, 52 F.3d 521, 522 (5th Cir. 1995). "Where a
defendant argues that the government failed to adduce
evidence sufficient to support venue for a particular count,
'we view the evidence in the light most favorable to the
Government, drawing all reasonable inferences in favor of the
verdict.'" United States v. Solis, 299 F.3d 420, 444 (5th Cir.
2002) (quoting United States v. Loe, 248 F.3d 449, 465 (5th
Cir. 2001)). The government must prove venue only by a
preponderance of the evidence and may rely entirely on
circumstantial evidence. Loe, 248 F.3d at 465. Thus, this
court "will affirm the verdict where a rational jury could
conclude 'that the government established venue by a
preponderance of the evidence.'" United States v. Thomas,
690 F.3d 358, 368 (5th Cir. 2012) (quoting United States v.
Garcia Mendoza, 587 F.3d 682, 686 (5th Cir. 2009)).
Petty does not contest that, in the Northern District of Texas,
she "knowingly . . . possesse[d] . . . without lawful authority,
[some] means of identification" of seven other persons.
Indeed, she does not deny that she had a box full of other
people's medical records. Instead, she denies that she illicitly
possessed the documents in the Northern District "with intent
to commit, or to aid or abet, or in connection with, any
unlawful activity." For this reason, she contends that she did
not commit identity theft in the Northern District.
Yet a rational jury could well conclude otherwise by a
preponderance of the [**4] evidence. Leave aside that Petty's
documents were plainly connected with previous unlawful
activity, namely food-stamp fraud in Florida that was
established by evidence presented to the jury. Beyond that,
there is evidence of "intent to commit" unlawful activity in
the Northern District. For example, Petty sought a job in

Dallas at Epic Health Services, where she could gain access to
patient information. Also, there was a notation in her notepad
indicating that, in Texas, food-stamp applicants must be on
Medicaid. Moreover, Petty tried to retrieve the box of stolen
identities [*296] from her daughter's house after law
enforcement began to investigate her. A rational jury could
infer by a preponderance of the evidence that Petty intended
to keep committing fraud in Texas.
Similarly, a rational jury could well conclude by a
preponderance of the evidence that Petty committed
aggravated identity theft in the Northern District of Texas.
Petty does not deny that she possessed the requisite number of
food-stamp access devices nor that she possessed means of
identification without lawful authority during and in relation
to her knowing possession of access devices. Instead, she
insists that she had [**5] no intent to defraud while in the
Northern District. The same evidence, however, that supports
Petty's "intent to commit" fraud for purposes of § 1028(a)(7)
also supports her "intent to defraud" for purposes of §
1029(a)(3) and § 1028A(a)(1). Thus, Petty's challenges to
venue fail.

II.
Petty also contests the restitution award of $44,438,
maintaining that this amount represents losses suffered by the
victim(s) of Petty's fraud before the date range charged in the
indictment. Because Petty did not object to the restitution
award in the district court, this court reviews the district
court's restitution order for plain error. See United States v.
Lozano, 791 F.3d 535, 537 (5th Cir. 2015). In this case,
though, the government concedes that the restitution award
contains an "error or defect" that is "clear or obvious" and
affected Petty's "substantial rights." Puckett v. United States,
556 U.S. 129, 135, 129 S. Ct. 1423, 1429, 173 L. Ed. 2d 266
(2009). Thus, Petty must show only that the error "'seriously
affect[s] the fairness, integrity or public reputation of judicial
proceedings.'" Id. (quoting United States v. Olano, 507 U.S.
725, 736, 113 S. Ct. 1770, 1779, 123 L. Ed. 2d 508 (1993)).
Petty meets that standard by pointing to multiple cases in
which this court has remedied plain error in similar
circumstances. Cf. United States v. Lozano, 791 F.3d 535, 539
(5th Cir. 2015); United States v. Mason, 722 F.3d 691, 695
(5th Cir. 2013); United States v. Inman, 411 F.3d 591, 595
(5th Cir. 2005); United States v. Maturin, 488 F.3d 657, 663
(5th Cir. 2007). Of course, the facts of each case must be
considered, but against the background of those cases,
erroneously ordering payment of more than [**6] $40,000
from a defendant who is not wealthy and whose criminal
gains may be subject to a forfeiture order, lead us to conclude

Brandon Beck

Page 3 of 3
810 Fed. Appx. 293, *296; 2020 U.S. App. LEXIS 13175, **6
that this error seriously affects the fairness or public
reputation of judicial proceedings and merits correction.

III.
Finally, Petty challenges the order of forfeiture against her
because it was indexed to the erroneous restitution award. At
sentencing, she raised the more extensive objection that the
"unusual" combination of this restitution award and forfeiture
order constitute "double payment to the government."
Determining that the more extensive objection at sentencing
preserved the more modest objection on appeal, "[w]e review
the district court's findings of fact under the clearly erroneous
standard of review, and the question of whether those facts
constitute legally proper forfeiture de novo." United States v.
Marmolejo, 89 F.3d 1185, 1197 (5th Cir. 1996). We note that
the order of forfeiture was based on a finding that Petty could
not forfeit more than $15,562, which finding was, in turn,
based on the finding that Petty would have to pay $44,438 in
restitution. This last finding is clearly erroneous, and therefore
the order of forfeiture must [*297] be reconsidered. In
vacating the forfeiture and restitution orders, [**7] we do not
instruct or confine the district court's exercise of discretion to
assess those amounts on remand.

CONCLUSION
The judgment of conviction is AFFIRMED. The restitution
award and the order of forfeiture are VACATED and
REMANDED for resentencing in light of this decision.

End of Document

Brandon Beck

United States v. Petty
United States Court of Appeals for the Fifth Circuit
January 26, 2021, Filed
No. 20-10737 Summary Calendar
Reporter
834 Fed. Appx. 107 *; 2021 U.S. App. LEXIS 2137 **; 2021 WL 265287

UNITED STATES OF AMERICA, Plaintiff—Appellee,
versus DEBORAH PETTY, Defendant—Appellant.
Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.
Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 3:14-CR498-1.

United States v. Petty, 2018 U.S. Dist. LEXIS 7719, 2018 WL
461128 (N.D. Tex., Jan. 17, 2018)
Counsel: For United States of America, Plaintiff - Appellee:
Leigha Amy Simonton, Assistant U.S. Attorney, U.S.
Attorney's Office, Northern District of Texas, Dallas, TX.
For Deborah Petty, Defendant - Appellant: Brandon Elliott
Beck, Federal Public Defender's Office, Northern District of
Texas, Lubbock, TX.
Judges: Before KING, SMITH, and WILSON, Circuit
Judges.

again challenges venue. The Government has filed an
unopposed motion for summary affirmance based on the law
of the case doctrine. In the alternative, the Government
requests an extension of time to file a merits brief.
"Under the law of the case doctrine, an issue of fact or law
decided on appeal may not be reexamined either by the
district court on remand or by the appellate court on a
subsequent appeal." [**2] United States v. Matthews, 312
F.3d 652, 657 (5th Cir. 2002) (internal quotation marks and
citation omitted). We have previously decided that venue was
proper in Petty's case, and Petty fails to demonstrate the
applicability of any exception to the law of the case doctrine
that might warrant reexamination of that conclusion. See id.
Thus, as Petty concedes, her argument is foreclosed, and
summary affirmance is proper. See Groendyke Transp., Inc. v.
Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
The Government's motion for summary affirmance is
GRANTED, and the judgment is AFFIRMED. The
Government's alternative motion for an extension of time to
file a brief is DENIED AS MOOT.

End of Document

Opinion
[*107] PER CURIAM:*
Deborah Petty was convicted by a jury of seven counts of
identity theft and one count of aggravated identity theft.
United States v. Petty, 810 F. App'x 293, 294 (5th [*108]
Cir. 2020). In her initial appeal, we concluded that venue was
proper, but we vacated the restitution award and forfeiture
order and remanded for resentencing. Id. at 294, 297.
Appealing from the judgment entered after resentencing, Petty

* Pursuant

to 5TH CIRCUIT RULE 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIRCUIT RULE
47.5.4.

Brandon Beck

APPENDIX B

Case 3:14-cr-00498-M Document 125 Filed 04/10/19

Page 1 of 7 PageID 502

20-10737.438

Case 3:14-cr-00498-M Document 125 Filed 04/10/19

Page 2 of 7 PageID 503

20-10737.439

Case 3:14-cr-00498-M Document 125 Filed 04/10/19

Page 3 of 7 PageID 504

20-10737.440

Case 3:14-cr-00498-M Document 125 Filed 04/10/19

Page 4 of 7 PageID 505

20-10737.441

Case 3:14-cr-00498-M Document 125 Filed 04/10/19

Page 5 of 7 PageID 506

20-10737.442

Case 3:14-cr-00498-M Document 125 Filed 04/10/19

Page 6 of 7 PageID 507

20-10737.443

Case 3:14-cr-00498-M Document 125 Filed 04/10/19

Page 7 of 7 PageID 508

20-10737.444

